       BENCHMARKING
    COMMISSION PROCEDURES

                      EXECUTIVE SUMMARY
We conducted an audit to compare certain Commission 1 procedures to those of other
federal agencies, which have similar executive, legislative, and judicial
responsibilities. Our objective was to identify possible improvements to the
Commission’s procedures based on best practices in the federal government
(benchmarking).2
In some instances, the Commission’s procedures are similar to other federal
agencies, in part because of governing federal law (e.g., rulemaking is subject to the
Administrative Procedures Act). In other cases, procedural differences between the
Commission and other federal agencies reflect deliberate policy decisions by the
Commission, or differences in mission.
We are not making any recommendations in this audit report. We are providing the
information to the Commission to aid in its evaluation of its procedures to assure
that it promptly disposes of all matters affecting the rights of those regulated.3



                    SCOPE AND OBJECTIVES
Our objective was to identify possible improvements to the Commission’s procedures
based on best practices in the federal government. We obtained information from
selected federal agencies, which have executive, legislative, and judicial
responsibilities similar to those of the Commission.
In order to benchmark Commission procedures, we identified significant time-
consuming activities related to the Commission’s executive, legislative, and judicial
responsibilities.
The information we obtained may be useful to the Commission under 17 C.F.R.
200.68. This rule states that,


1  In this audit report, the term Commission refers to the Chairman and the Commissioners of the
   Securities and Exchange Commission and not the agency as a whole.
2 “Benchmarking is a continuous, systematic process for evaluating the products, services, and work

   processes of organizations that are recognized as representing best practices for the purpose of
   organizational improvement” (Michael J. Spendolini, The Benchmarking Book, 1992).
3 17 CFR 200.68.
                                                                                           PAGE 2



            “The Commission should evaluate continuously its practices and procedures
           to assure that it promptly disposes of all matters affecting the rights of those
                                            regulated.”
During the audit, we interviewed staff at selected federal agencies (see below). We
also reviewed supporting documentation describing these federal agencies’
organizations and procedures.
The audit was performed in accordance with generally accepted government
auditing standards from June 1999 to December 1999.



                                  BACKGROUND
The following is a description of the federal agencies we surveyed: 4
          •   Commodity Futures Trading Commission (CFTC): Consists of five
              Commissioners who are appointed by the President, with the advice and
              consent of the Senate. The Commissioners serve a five-year term. The
              President designates one Commissioner as Chairman. No more than
              three of the Commissioners can belong to the same political party.
          •   Equal Employment Opportunity Commission (EEOC): Consists of five
              Commissioners who are appointed by the President, with the advice and
              consent of the Senate. The General Counsel is also appointed by the
              President and confirmed by the Senate. The Commissioners serve a five-
              year term. The President designates a Chairman and a Vice-Chairman.
              No more than three of the Commissioners can belong to the same political
              party.
          •   Federal Communication Commission (FCC): Consists of five
              Commissioners who are appointed by the President, with the advice and
              consent of the Senate. The Commissioners serve a five-year term. The
              President designates one Commissioner as Chairman. No more than
              three of the Commissioners can belong to the same political party.
          •   Federal Deposit Insurance Corporation (FDIC): Management of FDIC
              consists of a five-person Board of Directors that includes a Chairman,
              Vice-Chairman, and Appointive Director. The Comptroller of the
              Currency, who supervises federally chartered or national banks, and the
              Director of the Office of Thrift Supervision, who supervises federally
              charted savings associations, are also members of the Board. Board
              members serve a six-year term. The President, with the advice and
              consent of the Senate appoints all five Board members. No more than
              three of the Board members can belong to the same political party.
          •   Federal Election Commission (FEC): Consists of six Commissioners who
              are appointed by the President, with the advice and consent of the Senate.
              The Staff Director and the General Counsel are statutory officers. The

4   These agencies are classified as either Independent Establishments (or Agencies) or Government
    Corporations.



BENCHMARKING COMMISSION PROCEDURES (AUDIT 310)                                      MARCH 17, 2000
                                                                              PAGE 3



           Commissioners serve a six-year term. No more than three of the
           Commissioners can belong to the same political party.
       •   Federal Maritime Commission (FMC): Consists of five Commissioners
           appointed by the President, with the advice and consent of the Senate.
           The President designates one Commissioner as Chairman. The
           Commissioners serve a five-year term. No more than three of the
           Commissioners can belong to the same political party.
       •   Federal Reserve Board (FRB): Consists of seven Governors including the
           Chairman, who are appointed by the President, with the advice and
           consent of the Senate. The Governors serve 14-year terms. Only one
           Governor can be appointed from one of the twelve Federal Reserve
           Districts at any one time, and each Governor shall be selected “with due
           regard to a fair representation of the financial, agricultural, industrial,
           and commercial interests, and the geographical divisions of the country.”
           The President, with the advice and consent of the Senate, also appoints
           the President of each Reserve Bank.
       •   Federal Trade Commission (FTC): Consists of five Commissioners
           appointed by the President, with the advice and consent of the Senate.
           The Commissioners serve a seven-year term. The President designates
           one Commissioner as Chairman. No more than three of the
           Commissioners can belong to the same political party.
       •   International Trade Commission (ITC): Consists of six Commissioners
           appointed by the President, with the advice and consent of the Senate.
           The Commissioners serve a nine-year term. The President designates the
           Chairman and the Vice-Chairman for two-year terms, and succeeding
           Chairmen may not be of the same political party. No more than three of
           the Commissioners can belong to the same political party.
       •   National Labor Relations Board (NLRB): Consists of two separate
           components. The Board itself has five members appointed by the
           President, with the advice and consent of the Senate. The President, with
           the advice and consent of the Senate also appoints the General Counsel,
           who is independent of the Board. The General Counsel recommends
           appointments of the regional directors, but the Board appoints them. No
           more than three of the Commissioners can belong to the same political
           party.



                          AUDIT RESULTS
We found that, in some cases, the Commission’s procedures are similar to the other
federal agencies. In part, the similarities are due to the requirements of federal law
(e.g., rulemaking procedures are subject to the Administrative Procedures Act
(APA)). In other cases, the procedural differences between the Commission and the
other federal agencies reflect deliberate policy decisions by the Commission, or




BENCHMARKING COMMISSION PROCEDURES (AUDIT 310)                         MARCH 17, 2000
                                                                                           PAGE 4



differences in mission. Accordingly, we are not making any recommendations in this
audit report.
Described below are the significant activities of the Commission. We have provided
a general discussion of the procedures at the Commission and the other federal
agencies. Our results are summarized in Appendix A.



              EXECUTIVE RESPONSIBILITIES

AUTHORITY TO INITIATE INVESTIGATIONS
The Commission’s Enforcement staff may conduct a preliminary inquiry or
investigation without Commission approval, provided that subpoenas are not
needed. If subpoena authority is needed, the staff seek a formal order as described
below. Staff at the CFTC, NLRB, FTC, FMC, FCC, FDIC, and FRB can also initiate
an investigation without the Commissioners’ 5 approval. The following agencies
have a different process:
          •   The ITC’s operating divisions can initiate an informal investigation based
              on a complaint from a US domestic industry or a referral from the
              Department of Commerce. If there is a preliminary finding by the
              Commissioners that the US domestic industry may have been harmed, a
              formal investigation is initiated. Formal investigations require the
              Commissioners’ approval and the Commissioners are more directly
              involved with the conduct of the investigation, but still delegate much of
              the day-to-day decisions to the operating divisions.
          •   The Commissioners approve the initiation of all investigations at the
              FEC.
          •   Depending on the Act that was allegedly violated, staff at the EEOC can
              only initiate an investigation, if a complaint is received. EEOC
              Commissioners can initiate investigations without a complaint.


AUTHORITY TO COMPEL TESTIMONY AND DOCUMENTS
Section 21(b) of the Exchange Act authorizes,
“any member of the Commission or any officer designated by it...to administer oaths
 and affirmations, subpoena witnesses, compel their attendance, take evidence and
 require the production of any books, paper, correspondence, memoranda, or other
     records which the Commission deems relevant or material to the inquiry.”
The Commission grants this authorization to the staff by reviewing an action
memorandum that justifies the need for subpoena authority and issuing a Formal

5   In this audit report, the term Commissioners also refers to Board Members or Governors, depending
    on the agency.



BENCHMARKING COMMISSION PROCEDURES (AUDIT 310)                                     MARCH 17, 2000
                                                                              PAGE 5



Order. The action memorandum also serves to inform the Commission of any novel
or complex issues. The Duty Officer, acting for the Commission, almost always
considers the Formal Order. Once the Formal Order is granted, the staff has the
authority to issue subpoenas to any person for records or testimony significant to the
investigation. Like most agencies, the Commission cannot directly enforce its own
subpoenas. It must bring an enforcement action to obtain a court order directing
compliance with the subpoena. Pursuant to delegated authority, the Commission’s
approval is not required for the staff to enforce a subpoena in federal court.
However, the staff must receive written approval from the Division Director or other
senior staff, in his absence.
All of the agencies surveyed have statutory authority to issue subpoenas. The
CFTC, FMC, FTC, and ITC also require Commissioner approval to issue subpoenas.
The FEC requires Commissioner approval of each individual subpoena to be issued.
However, many of the agencies we surveyed have a more decentralized approach
than the Commission’s. For instance:
       •   The NLRB has delegated general subpoena authority to the field offices.
       •   The FDIC has delegated general subpoena authority to the operating
           divisions and the Office of the General Counsel (OGC).
       •   The FRB has delegated general subpoena authority to the OGC with the
           concurrence of the operating division (i.e., Banking, Supervision, and
           Regulation).
       •   The FCC has delegated general subpoena authority to the Division of
           Enforcement, with the concurrence of the General Counsel.
       •   The EEOC has delegated general subpoena authority to the field offices,
           except for investigations under the Equal Pay Statute (the statute
           prohibits the delegation). Investigations under this statute are rare,
           however.


AUTHORITY TO INSTITUTE CIVIL AND ADMINISTRATIVE
ACTIONS
The Commission has independent litigation authority for civil and administrative
actions. The Commission’s Enforcement staff need approval to institute civil
litigation in district court or an administrative proceeding (AP) before an
administrative law judge (ALJ). An action memorandum is prepared by the
Enforcement staff and is used to request authority from the Commission to litigate.
The FTC, CFTC, FMC, FRB, and FEC also require Commissioner approval to
institute civil litigation or APs. The following agencies have a different process:
       •   The NLRB has delegated the authority to institute APs to its regional
           directors, but requires approval by the Board and the OGC for civil
           litigation.




BENCHMARKING COMMISSION PROCEDURES (AUDIT 310)                          MARCH 17, 2000
                                                                                              PAGE 6



          •   The FDIC has delegated the authority to institute APs and civil litigation
              to the operating divisions, except receivership actions in district court
              requires the Board’s approval.
          •   The FCC has delegated the authority to institute both civil litigation and
              APs to the Division of Enforcement.
          •   In most cases, the EEOC has delegated the authority to institute civil
              litigation and APs to the General Counsel. However, the Commissioners
              expect that the General Counsel will further delegate this authority to the
              heads of the field offices, depending on the experience and knowledge of
              each office head. Despite the delegation, certain cases need to be
              approved by the Commissioners (depending on the anticipated cost of
              litigation, case precedent, novelty of the issues, etc.).
          •   The ITC only brings enforcement actions related to subpoena enforcement
              or collection of civil penalties. Subpoena enforcement actions are rare and
              require Commissioner approval.


AUTHORITY TO SETTLE ENFORCEMENT ACTIONS
Under the Administrative Procedures Act (5 U.S.C.A. section 554(c)(1)), federal
agencies are required to consider settlement offers. The Commission must approve
all settlements, either at a closed meeting or seriatim through an action
memorandum. 6
The FEC, CFTC, and FTC use a similar process as the Commission. The NLRB,
FRB 7, FMC, FDIC 8, FCC, and EEOC generally delegate settlement authority to the
operating division(s) or field offices, provided that the settlement is within certain
general parameters. Since the ITC only brings enforcement actions related to
subpoena enforcement, it does not settle cases.


EMERGENCY ACTIONS
Occasionally, immediate Commission action is required (e.g., for trading
suspensions, to seek temporary restraining orders). Commission Rule 17 CFR
200.43 states that one Commissioner, acting as the Duty Officer, can approve
Commission actions (except rulemaking). The authority is used when, in the opinion
of the Duty Officer, immediate action is required and, because of its urgency, the



6   The Commission’s approval is not required if the settlement obtains all of the relief that was
    authorized. In civil injunctive actions, the staff can accept the court’s entry of such an order. In
    administrative proceedings, the Office of the Secretary has delegated authority to enter an order for
    full relief in any proceeding previously instituted.
7   At the FRB, each individual Federal Reserve Bank has the authority to approve settlements with the
    concurrence of the General Counsel and the Director of Banking, Supervision, and Regulation.
8   At the FDIC, the Case Review Committee (which acts for the Board) must approve all settlements.
    The Committee can approve those settlements, which are within acceptable parameters. Otherwise,
    it must be sent to the Board for approval.



BENCHMARKING COMMISSION PROCEDURES (AUDIT 310)                                        MARCH 17, 2000
                                                                                          PAGE 7



action cannot practicably be scheduled for consideration at a Commission meeting or
seriatim.
The Duty Officer rotates daily among the Commissioners (except for the Chairman).
Actions taken by the Duty Officer are subject to subsequent approval by the
Commission. Any Commissioner can request to have a Duty Officer action reviewed
by the Commission.
The federal agencies we reviewed do not have Duty Officers or a similar concept,
either because they generally do not have urgent matters, or they have delegated the
necessary authorities to their operating divisions, field offices, etc. The following is
a description of the process at the CFTC, ITC, and FMC.
          •   The CFTC Chairman has the authority to act unilaterally in emergency
              situations. If the Chairman is unavailable, the authority rests with the
              most senior Commissioner. The action is subject to subsequent approval
              by the Commissioners.
          •   The ITC Chairman has certain unilateral authorities, however, the other
              Commissioners can override them.
          •   The FMC staff will locate the Commissioners (e.g., telephone, pagers, etc.)
              and take an oral vote in emergency situations.



              LEGISLATIVE RESPONSIBILITIES

RULEMAKING
All the federal agencies we reviewed have the authority to make rules pursuant to
the statutes they administer. The rulemaking process is similar throughout the
federal government, because of the requirements of the APA and other
administrative statutes (e.g., the Regulatory Flexibility Act). In all cases, proposed
rules are published in the Federal Register for public comment, with final rules
approved by the Commissioners. 9


GUIDANCE AND EXEMPTIONS
The Commission’s operating divisions provide guidance to the public. As a general
rule, this guidance is exempt from the APA procedural rulemaking requirements.
The guidance can include no-action letters, responses to telephone inquiries, and
staff bulletins. For instance, the Division of Market Regulation has delegated
authority to issue no-action letters, but the Commission must approve exemptions.
There are situations where the staff has delegated authority to act, but the issue is
significant, novel, complex, etc. The staff will typically prepare an advice

9   The Commission must also approve the rule proposals and any other action relating to rulemaking
    (e.g., concept releases, extension of the comment period).


BENCHMARKING COMMISSION PROCEDURES (AUDIT 310)                                    MARCH 17, 2000
                                                                                               PAGE 8



memorandum to the Commission. The memorandum indicates that, unless the
Commission instructs otherwise, the staff will take the intended action (as described
in the memorandum) on a certain date. For instance, the Commission is given an
opportunity to review staff legal bulletins before they are issued. Interpretative
releases are approved by the Commission and are published in the Federal Register.
Generally, the other federal agencies, in some form or another, have similar
processes to provide guidance. For the most part, providing guidance is an informal
process with significant authority granted to the operating divisions. The FCC,
FDIC, and FMC also have the authority to exempt entities from certain provisions of
their statutes.


REVIEW OF SELF-REGULATORY ORGANIZATION
PROPOSED RULES
Self-Regulatory Organizations (SRO) are private organizations registered with the
Commission that provide regulation of the securities industry.
The Commission’s Division of Market Regulation (MR) reviews their proposed rules
and has delegated authority to approve the rules, although they may inform the
Commission before they make a final decision. On rare occasions, the rule is sent to
the Commission for approval. MR’s decision can be appealed to the Commission.
None of the other agencies has an equivalent function, except for the CFTC. At the
CFTC, the Commissioners must approve all SRO rules.



               JUDICIAL RESPONSIBILITIES

APPEAL OF SELF-REGULATORY ORGANIZATION
DISCIPLINARY ACTIONS
SROs bring disciplinary actions against their members for violations of their rules
and of the securities laws, as well as taking other adverse actions (e.g., delistings)
that are subject to Commission review. The SRO conducts an internal hearing and
appeal process to determine if discipline is appropriate. A member who is not
successful in appealing an adverse decision within the SRO may appeal to the
Commission. 10
OGC prepares a draft opinion, 11 often in consultation with the applicable operating
division, which has expertise in the subject matter. The Commission considers the


10 The SROs action may be appealed by either a member or any individual adversely affected by the
   SRO’s action (e.g., final disciplinary actions, denial or limitation on membership or participation,
   limitation on access to services, or bar from association).
11 The opinion can either affirm or reverse the SRO’s decision, or remand the proceeding back to the

   SRO for further action.



BENCHMARKING COMMISSION PROCEDURES (AUDIT 310)                                         MARCH 17, 2000
                                                                                               PAGE 9



draft opinion either seriatim or, if the issues are novel or complex, at a closed
Commission meeting.
After the Commission makes any changes to the OGC draft opinion and votes to
approve it, the Commission issues its official opinion. After the opinion is issued,
the individual may appeal it to a Court of Appeals.
Only CFTC makes appellate decisions with respect to SRO disciplinary actions. It
uses a similar process to make those decisions.


APPEAL OF ADMINISTRATIVE LAW JUDGE INITIAL
DECISIONS
ALJs issue initial decisions in APs. Either party (i.e., the Division of Enforcement or
the respondent) can appeal the initial decision. Appeals of ALJ initial decisions are
subject to the APA. An appealed initial decision is without force and effect under
the APA and is solely a recommendation. Consequently, the appeal process is
generally similar throughout the Federal government.
The appeal process at the Commission is similar to appeals of SRO disciplinary
action(s), described above. However, oral arguments before the Commission, if
requested, are usually allowed in appeals of ALJ initial decisions. In preparation for
the argument, OGC prepares a preargument memorandum, which summarizes the
facts and analyzes the issues. Following the oral argument and an executive
session, OGC drafts an opinion in accordance with the Commission’s directions.12
The FEC does not have ALJs. Accordingly, they do not have an appeals process for
ALJ intial decisions. The FTC has a similar appeal process to the Commission’s, in
that an oral argument is a right. The FDIC, ITC, FCC, NLRB, CFTC, FRB, and
FMC require a showing that an oral argument is necessary (e.g., that a briefing
process would be inadequate) before granting it. The EEOC has never heard an oral
argument and there is no provision for it in their rules of practice.




12    It is worth noting that the hearing before the ALJ at some of the other federal agencies differs. At
     the Commission, the ALJ determines whether a violation has occurred and the remedy. However, at
     some federal agencies, the Commission determines the remedy. Secondly, at the Commission, the
     Division of Enforcement is almost always (e.g., the Chief Accountant is the plaintiff in Rule 102(e)
     proceedings) the plaintiff. However, at some federal agencies, the ALJ decides disputes between
     members of the public.




BENCHMARKING COMMISSION PROCEDURES (AUDIT 310)                                         MARCH 17, 2000
